September 20, 1999

NORMAN E. LORENTZ
SENIOR VICE PRESIDENT, CHIEF TECHNOLOGY OFFICER

SUBJECT:	 Audit Report – Year 2000 Initiative: Status Report on Postal Service Year
          2000 Readiness (Audit Report Number IS-AR-99-002)

This report presents the results of our review of the USPS Year 2000 (Y2K) Initiative
regarding progress in addressing the Year 2000 Challenge. (Project Number
99EA017IS000). This is our seventh report addressing USPS efforts to deal with the
Year 2000 Issue.

The report contains no recommendations but presents an independent perspective with
regard to Y2K activities reported by the various elements within the Postal Service. We
compared work completed against initial and/or adjusted baseline numbers for each
activity and characterized progress as substantial, considerable, or limited. Postal
management commented on this report, at our invitation, even though there were no
recommendations. Their comments questioned our reporting on baseline numbers and
work completed instead of discussing planned actions and interim status of various
activities. Our evaluation of management’s comments, which is included in its entirety
as an appendix, can be found in the executive summary.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact
or me at
(703) 248-2300.



Billy J. Sauls
Assistant Inspector General
  for Employee

Attachment

cc: Richard D. Weirich
    John R. Gunnels
    Alan B. Kiel
Y2K Initiative: Status of Postal Service Y2K Readiness                                   IS-AR-99-002


                                      TABLE OF CONTENTS


Part I

Executive Summary                                                                               i


Part II

Introduction

          Background                                                                           1

          Objective, Scope, and Methodology                                                    1


          Prior Audit Coverage                                                                 2


Audit Results

          Status of Major USPS Y2K Areas                                                       3


          Critical Core Business Infrastructure                                                6


          Corporate-wide Y2K Issues                                                           10 


          Status of Program Management Office Report Recommendations                          13 


Exhibits

          Exhibit A May 1999 Y2K Status Information                                           15 


          Exhibit B December 1998 Y2K Status Information                                      16 


          Exhibit C Prior Audit Coverage Synopsis                                             17 


          Exhibit D Details of Y2K Report on Program Management Office                        19 

                        Reporting Recommendation Implementation 


Appendix

          Management’s Comments                                                               20 





                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271,
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



                                  EXECUTIVE SUMMARY

Introduction                   This is our seventh audit report in a series of Office of
                               Inspector General (OIG) reports regarding the United States
                               Postal Service (USPS) Year 2000 (Y2K) Initiative. (See the
                               Prior Audit Coverage section on page 17 for details on
                               these prior reports.) This report discusses our review of the
                               USPS Y2K Initiative regarding progress in addressing the
                               Year 2000 challenge. The report contains no
                               recommendations but presents an independent perspective
                               with regard to Y2K activities reported by the various
                               elements within the Postal Service.

Results in Brief               Overall, the Postal Service had demonstrated considerable
                               progress on the Y2K Initiative as of May 1999 in comparison
                               to the baseline numbers we reported in December 1998.
                               However, much work remains in successfully completing the
                               Y2K Initiative. The Postal Service demonstrated substantial
                               progress in making its severe and critical information
                               systems Y2K compliant and obtaining or developing Y2K
                               compliant solutions for its information technology
                               infrastructure and mail processing equipment. It also
                               showed considerable progress in making its data
                               exchanges Y2K ready and determining the readiness of its
                               suppliers. However, the Postal Service disclosed varying
                               levels of progress in the area of component contingency
                               plans and limited progress in facilities, business continuity
                               and recovery management planning, external suppliers, and
                               information system readiness testing. While much work
                               remains to be done in the areas where we have classified
                               progress as "considerable" and "limited," the Postal Service
                               is actively engaged in accomplishing these tasks.

                               In our February 1999 report on the USPS Y2K Program
                               Management Office's reporting on Y2K activities, we made
                               several recommendations to improve the quality of
                               reporting, including the adoption of a single status sheet for
                               briefing senior management. This report includes a
                               synopsis of actions taken by management to date regarding
                               those recommendations (see Exhibit D).

Summary of                     This report contains no recommendations and therefore
Management’s                   Postal management was not required to comment on its
Comments                       contents. However, management did accept our offer to



                                                     i

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



                               comment on the report and we have highlighted some of
                               their points in this summary section. The comments are
                               included in their entirety as an appendix to the report.

                               Management‘s comments focused on those areas in the
                               draft where we noted progress was either mixed or limited.
                               There were no major comments regarding other areas
                               where we noted substantial or considerable progress. The
                               comments addressed (1) component contingency plans, (2)
                               external suppliers, (3) facilities, (4) business continuity
                               planning and recovery management, and (5) simulation
                               testing.

                               In their comments, management noted that Business
                               Continuity Planning was classified as having made “limited
                               progress” because none of the 32 continuity plans had been
                               completed at the time of our review. Management claims
                               that, had we referenced the plan that called for developing
                               business continuity plans (emphasis added) by August 30,
                               1999, we would have reported that all such plans had been
                               drafted (emphasis added) by May 31, 1999, two months
                               before the planned date.

                               The comments also cites another area where the OIG was
                               critical for reporting that none of the Postal Service’s 353
                               critical facilities had been found Y2K ready to date. The
                               comments noted, “ . . . even though the report
                               acknowledges that assessments of all facilities were in
                               progress as of May 31, 1999, it does not evaluate progress
                               of this work segment in comparison with the June 1999
                               planned completion date for the assessments. At the time
                               of the audit, this activity was ahead of schedule, having
                               completed 288 assessments against a plan of 258.”

                               In general, management’s comments on our draft report
                               regarding their efforts to become Y2K compliant indicate
                               that, had we reported progress against their Year 2000 plan
                               - (the milestones and metrics contained therein) - instead of
                               focusing on baseline numbers, the results of our audit might
                               have been different and our findings would have resulted in
                               more accurate reporting.




                                                     ii 

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



Evaluation of                  As noted on the introduction to this report, we said we would
Management’s                   be reporting progress based upon the number of
Comments                       items/functions becoming Y2K compliant. We chose to use
                               actual numbers in order to provide an understandable
                               metric with which to gauge progress. We took no issue
                               with management’s Y2K Plan but we do believe presenting
                               interim milestones and partial results is less informative than
                               reporting actual results as to what was done and what
                               remains to be done. We evaluated progress against
                               baseline numbers to provide the metrics for Y2K
                               components actually completed for each area in relation to
                               the overall, desired result, and also reported the milestone
                               dates from the Plan to show a compliance reference point or
                               timeline.

                               The methodology we chose provides a different perspective
                               - a quantitative progression toward a finite goal that, when
                               compared to our first report and the baseline numbers,
                               clearly presents the degree of progress achieved and also
                               where progress is lacking or lagging behind. Another
                               reason for this approach is that the Plan does not provide
                               metrics for all components for every category we reported
                               and plans are subject to revision – the Plan has been
                               revised twice since its inception.

                               With regard to the examples cited in their comments, we
                               believe a report that indicates 353 critical facilities will be
                               Y2K compliant by November 30, 1999 (the current Plan
                               milestone date), is not as meaningful as one that reports
                               none of 353 critical facilities are Y2K compliant as of
                               July 31, 1999 - only five months short of the Y2K deadline.

                               Also, in the case of the business continuity plans (32 at the
                               time), we believe a more meaningful metric, for reporting
                               purposes, would be the number of plans completed, tested,
                               and deployed – which, in this case, was none. Without this
                               information, a reader would not know how close or far the
                               Postal Service is with regard to actually completing each
                               planned task.

                               Future status reports will continue to compare baselines to
                               current progress using baseline numbers and numbers
                               made compliant. We will also continue to provide milestone
                               dates to give some perspective to the work completed and
                               in process.


                                                     iii 

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



                                           INTRODUCTION 

Background                     The Y2K problem results from the way dates are recorded
                               and calculated in computer systems. In the past, to
                               conserve electronic data storage, systems typically used
                               two digits to represent the year, such as ‘98’ representing
                               1998. With this two-digit date format, however, the year
                               2000 is indistinguishable from 1900, 2001 from 1901, and
                               so on. As a result of this ambiguity, systems that use dates
                               to perform calculations may fail after 1999.

                               The Postal Service Y2K Initiative covers information
                               systems and platforms as well as other non- information
                               systems issues. The information systems portion of the
                               Y2K Initiative spans over 500 applications systems and
                               Postal Service information technology infrastructure
                               including mainframe hardware and software,
                               telecommunications, servers, personal computers, and
                               internal/external data exchanges. The Y2K Initiative also
                               includes external supplier activities as well as embedded
                               software found in mail processing equipment, facilities, and
                               vehicles. Further, business continuity planning, information
                               systems contingency planning, and readiness testing are
                               critical processes which must be performed to ensure that
                               the Postal Service is ready for the year 2000.

                               In order to effectively address business issues during the
                               final year of preparation for the turn of the century, the
                               Postal Service established a Year 2000 Executive Council.
                               The Council is made up of senior officers leading Y2K
                               communication, remediation, and business continuity
                               planning activities. These include the Chief Operating
                               Officer, Chief Financial Officer, Chief Marketing Officer,
                               Chief Technology Officer, and the Senior Vice President for
                               Government Relations. The Council meets approximately
                               twice each month to review the plan, assess progress, and
                               resolve issues. Progress is measured against the plan and
                               the results are reviewed at Council meetings.

Objective, Scope,              The objective of this phase in our continuing audit coverage
And Methodology                was to report on the status of Y2K readiness. Our audit
                               work was accomplished from March to July 1999 in
                               accordance with generally accepted government audit
                               standards, and included tests of internal controls as were
                               considered necessary under the circumstances. The data
                               in this report was gathered at headquarters and field
                               locations by sending a survey questionnaire and by
                                                     1
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness	                                  IS-AR-99-002



                               contacting the responsible officials, as necessary, in their
                               respective areas. We measured progress by taking the Y2K
                               accomplishments through the end of May 1999 (see Exhibit
                               A) and comparing them to the December 1998
                               accomplishments (see Exhibit B) and their respective
                               baseline data that was available at the time. The numbers
                               reported herein represent data gathered as of
                               May 31, 1999. Our review focused on measuring USPS’
                               Y2K progress at a given point in time. During our review,
                               we also followed up on implementation of prior
                               recommendations made in our February 18, 1999 report on
                               Program Management Office Y2K reporting. The results of
                               that work can be found in Exhibit D.

                               We recognize that the Postal Service's effort to become
                               Y2K compliant is a continuous process, and the numbers
                               are constantly changing - up or down depending on the
                               circumstances. We will reflect those changes in subsequent
                               status reports. We are not comparing Postal efforts with
                               their plan but are reporting the numbers as they evolve, to
                               give those concerned an understandable metric (standard of
                               measurement) with which to gauge progress. If a task had
                               not been started or was not reported, either because of a
                               problem or it was planned that way, we set the point of
                               reference or baseline at zero and reported the differences
                               accordingly.

Prior Audit Coverage 	 As part of our continuing Y2K review coverage, we issued
                       five audit reports focusing on the operational aspects of the
                       Y2K Initiative. A sixth report was issued that dealt with Y2K
                       contract administration issues. A letter report was also
                       issued addressing Y2K contract indemnification matters. In
                       addition, the OIG and General Accounting Office testified in
                       a February 23, 1999 joint hearing before three House
                       subcommittees on various USPS Y2K issues. Exhibit C
                       contains a more detailed discussion of these reviews.




                                                     2
                     This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                            Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                                 IS-AR-99-002



                                                                AUDIT RESULTS
Status of Major USPS                While we are aware that the Postal Service Y2K Initiative
Y2K Areas                           continues to evolve, this report documents the progress of
                                    specific Y2K areas as of May 31, 1999. The
                                    characterization of the status of Y2K areas in this report, as
                                    compared to the baseline numbers, was determined as
                                    follows: substantial progress -- 75 percent or more of the
                                    baseline completed; considerable progress -- 25 to 74
                                    percent of the baseline completed; and limited progress --
                                    24 percent or less of the baseline completed. This report
                                    does not contain any recommendations, however, two
                                    ongoing Y2K reviews will address specific issue areas and
                                    may include recommendations. This status report will be
                                    updated and issued on a periodic basis.

Information Systems                 Severe and Critical Information Systems: The Postal
Area                                Service demonstrated substantial progress in making its
                                    severe and critical information systems Y2K ready.



                                                                    Y2K Severe & Critical Information Systems



                                                                                                         156
                                                                                                                 141
                                      Number of Systems




                                                                   135                    133
                                                          114




                                                                                  6

                                                                Remediated                 PIV                 Baseline

                                                          December 1998 Actual        May 1999 Actual   September 1999 Target




                                    Of the 141 information systems deemed severe and critical
                                    as of May 31, 1999 (shown in the chart), 135 were
                                    remediated1 and 133 successfully completed post
                                    implementation verification2 (PIV). We noted improvement
                                    in the remediation and post implementation verification
1

     Remediate – reviewing and correcting systems/components for Y2K readiness.
2

     Post implementation verification (PIV) - a review of systems after remediation to provide independent assurance
       that they are Y2K ready.

                                                                             3

                         This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                                Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                                          IS-AR-99-002



                                  efforts as shown in the chart since December 1998. The
                                  Postal Service reduced the baseline3 from 156 severe and
                                  critical information systems in December 1998 to 141
                                  systems in May 1999 (17 systems were deleted and 2 other
                                  systems were added for a net difference of 15). Business
                                  owners determined that the majority did not significantly
                                  affect core business processes, for deleted systems.

                                  Information Technology Infrastructure: The Postal
                                  Service relies heavily on mainframe systems, midrange
                                  computers, network servers, personal computers and
                                  telecommunication equipment to carry out its mission. The
                                  Postal Service demonstrated substantial progress in
                                  identifying Y2K solutions for 2,720 of the 3,125 baseline
                                  information technology infrastructure components as shown
                                  in the chart below.4 The Postal Service identified the
                                  remaining 405 components as candidates for retirement.



                                                                           Y2K Information Technology Infrastructure
                                    Number of Types of Components




                                                                                                                      3125
                                                                           2720

                                                                                                               2010

                                                                    1481




                                                                       Y2K Ready            *See Footnote          Baseline

                                                                     December 1998 Actual    May 1999 Actual   Undeterminable




                                  The baseline has increased from 2,010 to 3,125 since
                                  December 1998, increasing the number of components
                                  needing Y2K solutions. Most of the remaining components
                                  needing Y2K solutions were acquired from commercial

3
   Baseline – the number of items in an inventory for each particular Y2K area; the beginning number to which
remediation must be applied.
4
   According to Postal Service officials, the post implementation verification process is not applicable to the
information technology infrastructure. A less rigorous process---Independent certification—was used for these
components and was ongoing at the time of our review

                                                                                   4
                      This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                             Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                                IS-AR-99-002



                                 vendors. Thus, the Y2K solutions for these components are
                                 not controlled by the Postal Service, and therefore a target
                                 completion date was undeterminable.

                                 Data Exchanges: The Postal Service exchanges a
                                 significant amount of system data internally and with
                                 external organizations. The Postal Service demonstrated
                                 considerable progress in making 968 of its 1,497 severe
                                 and critical data exchanges Y2K ready as shown in the
                                 chart below:


                                                                    Y2K Severe & Critical Data Exchanges



                                                                                                        2020
                                    Number of Data Exchanges




                                                                                                                  1497


                                                                     968




                                                                0

                                                                 Y2K Ready      PIV Not Applicable         Baseline

                                                               December 1998 Actual   May 1999 Actual     July 1999 Target




                                 We noted improvement since December 1998 when none of
                                 the data exchanges were Y2K ready. Also, since December
                                 1998, the Postal Service validated its data exchanges and
                                 determined that the final baseline contained 1,497 severe
                                 and critical exchanges - down from 2,020.5 According to
                                 Postal Service officials, the reported reduction in the
                                 baseline since December 1998 was attributed to removing
                                 those exchanges that were previously double and triple
                                 counted in the inventory. The Postal Service target date for
                                 making all severe and critical data exchanges Y2K
                                 compliant is July 1999. We are conducting a separate, in-
                                 depth review on Y2K data exchanges to determine the
                                 readiness status and completeness of testing.

5
  Our December data did not contain a breakout for severe and critical exchanges. In fact, the baseline we reported
was changing. This 2,020 baseline represents the first breakout of severe and critical exchanges we encountered.
We first identified this baseline in January 1999.

                                                                           5
                      This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                             Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                IS-AR-99-002



                               Component Contingency Plans: The Postal Service
                               demonstrated substantial progress in developing and
                               approving component contingency plans, however, its
                               progress in testing and deploying the plans has been
                               limited. The Postal Service's limited progress in this area is
                               related to a revised definition of the term “completed,” which
                               now encompasses developing, approving, testing, and
                               deploying contingency plans. As shown in the following
                               chart, the Postal Service had developed 173 of 185
                               contingency plans and approved 123 of the plans, but only 3
                               had been "completed" as of May 31, 1999. None of the
                               component contingency plans had been completed prior to
                               December 1998. The scheduled completion date for these
                               plans is October 1999.


                                                            Y2K Component Contingency Plans


                                                   173
                                                                                                185
                                 Number of Plans




                                                                     123




                                                                                  3

                                                   Developed         Approved   Completed          Baseline

                                                         May 1999 Actual              October 1999 Target




Critical Core                  Mail Processing Equipment: As depicted below, the
Business                       Postal Service demonstrated substantial progress in
Infrastructure                 developing Y2K solutions for 35 of its 38 severe and critical
                               types of mail processing equipment. Also, the number of
                               solutions being developed increased from 27 to 35 for
                               severe and critical types of mail processing equipment since
                               December 1998. For the three types of equipment not
                               remediated, officials indicated that the
                               equipment’s primary function of processing mail was fully
                               operational and was not affected by Y2K. Secondary
                               functions of this equipment, such as reporting, were still in
                               remediation. Post implementation verification at the time of
                               our review was completed on 27 of 38 types of mail
                                                                6

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                                   IS-AR-99-002



                               processing equipment. The Postal Service was in the
                               process of deploying the actual Y2K-ready solutions to
                               thousands of pieces of equipment nationwide.


                                                                 Y2K Severe & Critical Mail Processing Equipment




                                 Number of Types of Equipment
                                                                                                         43
                                                                                                                         38
                                                                       35

                                                                27                         27




                                                                                       0

                                                                  Y2K Ready                PIV                Baseline

                                                                December 1998 Actual   May 1999 Actual   August 1999 Target




                               Since December 1998, the mail processing equipment
                               baseline was reduced from 43 to 38 because (a)
                               deployment was delayed until post year 2000 on two new
                               pieces of equipment, (b) one system was being replaced,
                               and (c) two others were reclassified as important but not
                               critical. The scheduled completion for developing and
                               deploying the remaining solutions for mail processing
                               equipment is August 1999. We are currently conducting a
                               separate review of mail processing equipment Y2K
                               readiness, including progress in deploying actual solutions,
                               progress on embedded systems’ Y2K readiness, and the
                               adequacy of mail processing equipment testing.

                               External Suppliers: The Postal Service's progress with
                               regard to the overall Y2K readiness of its 1,863 critical
                               suppliers, business partners for whom the Postal Service
                               has no real control over, is limited. The severe and critical
                               suppliers' baseline was increased from 563 (the December
                               1998 number) to 1,863 as of May 1999 because the original
                               baseline only included the Business Area suppliers. At that
                               time, the Postal Service had not begun assessing
                               Geographic Area suppliers. The current baseline consists
                               of 277 Business Area suppliers and 1,586 Geographic Area
                               suppliers. These suppliers include external organizations
                                                                             7
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                      IS-AR-99-002



                               used by the Postal Service to support its core business
                               processes such as those in the airline, railroad and trucking
                               industries. As depicted in the chart below, 130 suppliers
                               (36 Business Area suppliers and 94 Geographic Area
                               suppliers) are Y2K ready -- a considerable improvement
                               from the December 1998 numbers when only 6 suppliers
                               were Y2K ready. (Our prior report inadvertently indicated
                               two Y2K suppliers were ready.)

                                                                   Y2K Severe & Critical Suppliers


                                                                                                 1863
                                 Number of Suppliers




                                                            130
                                                        6

                                                        Y2K Ready         PIV Not Applicable     Baseline

                                                       December 1998 Actual    May 1999 Actual   Undeterminable




                               However, with only 130 of 1,863 critical suppliers reported
                               as Y2K ready, the May 31, 1999 progress--in our opinion--
                               would be considered limited (only 7 percent completed).
                               We are aware of the fact that the Postal Service expects
                               863 suppliers (240 Business Area and 623 Geographic
                               Area) to be Y2K ready but those numbers still remain to be
                               seen. These additional suppliers (863), when added to the
                               130 suppliers that were reported as Y2K ready, will only
                               represent a little over 50 percent of the baseline.

                               Our review also showed that 639 Geographic Area suppliers
                               were contacted by the Postal Service but had not
                               responded as of May 31, 1999. During our review, the
                               Postal Service continued efforts to contact these non-
                               responsive Geographic Area suppliers. The Postal Service
                               will prepare business continuity plans and will consider
                               alternate suppliers for those who may not be ready,
                               however, a specific milestone for taking such action had not
                               been established. We are currently evaluating the status
                                                                    8
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                               IS-AR-99-002



                               and progress of external supplier readiness in a separate,
                               ongoing review.

                               Technology-Dependent Facilities: The Postal Service's
                               progress in making its critical technology-dependent mail
                               processing equipment field facilities ready for Year 2000
                               has been limited. The technology-dependent facility
                               baseline decreased from 1,200 in December 1998 to 353 in
                               May 1999 (see chart below) because of a reclassification of
                               facilities. The Postal Service redefined its critical facilities to
                               include those important network nodes through which they
                               process 95 percent of the mail. Subsequent to establishing
                               its original critical facilities baseline, the Postal Service also
                               added to its inventory 3,631 facilities that it categorized as
                               having potential Y2K life safety issues. We did not present
                               a chart since this was a new category of facilities as of May
                               31, 1999 and a comparison for metrics to the December
                               1998 statistics could not be made. However, this new
                               category of facilities will be reviewed for Y2K readiness in
                               our next status report.


                                                                              Y2K Critical Field Facilities


                                                                                                               353
                                  Number of Field Facilities




                                                                   0 0

                                                                 Y2K Ready        PIV Not Applicable          Baseline

                                                               December 1998 Actual   May 1999 Actual   November 1999 Target




                               Assessments of all facilities were in progress as of
                               May 31, 1999. At that time, none of the critical
                               technology-dependent facilities had been reported as Y2K
                               ready, while 342 of the important, but not critical life safety
                               facilities were reported as Y2K ready. The planned Y2K
                               readiness date for all facilities is November 1999.


                                                                          9
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                      IS-AR-99-002



Corporate-wide Y2K             Business Continuity Planning and Recovery
Issues                         Management Planning: The Postal Service is fully
                               engaged in business continuity planning, but had made
                               limited progress in completing its business continuity and
                               recovery management planning as compared to its baseline
                               numbers. We rated this as “limited” because the continuity
                               plans had not been completed or tested at the time of our
                               review. However, we recognize that the Postal Service
                               does have a schedule for developing and testing these
                               plans in August 1999 and, if needed, November 1999.
                               Nonetheless, much work remains over the next several
                               months to complete these plans.

                               We noted improvement between the present and December
                               1998, when none of the continuity plans were developed. At
                               the time of our review, the Postal Service had documented
                               its mission critical processes and identified key systems,
                               components, and suppliers supporting those processes.
                               Postal officials had also identified a number of potential
                               failure scenarios for mission-critical systems and developed
                               32 draft business continuity plans to address these
                               scenarios. The draft continuity plans are expected to be
                               completed by July 1999, with rehearsals (tests) targeted for
                               August and, if necessary, November 1999. Component
                               contingency plans and procedures required to implement
                               some of the business continuity plans also need to be
                               completed.


                                                                  Business Continuity Plans

                                                                                                      32
                                 Number of Plans




                                                      0 0

                                                      Completed           PIV Not Applicable        Baseline

                                                   December 1998 Actual     May 1999 Actual    November 1999 Target




                                                                10

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                      IS-AR-99-002



                               In May 1999, the Postal Service began recovery
                               management planning which included documenting existing
                               disaster recovery capabilities, identifying recovery process
                               owners and their roles, and developing a recovery
                               management plan. With the reported target date of
                               November 1999 for completion, the recovery management
                               effort was on schedule, however, we believe much work
                               remains to be done. Future actions include developing
                               requirements for reporting, tracking, and correcting Y2K
                               induced failures; integrating rollover schedules; and
                               integrating and validating the recovery management plan.
                               We are conducting a separate review to determine if the
                               Postal Service has adequate continuity and recovery plans
                               to minimize Y2K disruptions.

                               Information Systems Readiness Testing: The Postal
                               Service initially planned to conduct release testing on all
                               severe and critical information systems to ensure Y2K
                               readiness. However, in December 1998, the Postal
                               Service's focus shifted from release testing to simulation
                               testing. In March 1999, postal officials established a new
                               baseline of 70 information systems for testing, prepared the
                               test environment and test plans, and conducted information
                               system pilot tests. In May 1999, the Postal Service again
                               reduced the number of information systems to be tested
                               from 70 to 30 because of budget reductions and a shortened
                               window to complete testing.


                                                                Y2K Systems Readiness Testing



                                                                                                    30
                                 Number of Systems




                                                        00

                                                       Completed        PIV Not Applicable       Baseline

                                                     December 1998 Actual   May 1999 Actual   August 1999 Target




                                                                 11
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                                                 IS-AR-99-002



                               Because of the reduction in the scope of testing and the fact
                               that testing had not begun as of May 1999, progress was
                               considered limited. However, the Postal Service started
                               readiness testing of the 30 systems in June 1999 and
                               expects to be completed by August 1999. A separate Y2K
                               review is underway to look at the scope and adequacy of
                               planned testing and the rationale behind management’s
                               decision to reduce readiness testing.

                               Mail Processing Equipment Readiness Testing: The
                               Postal Service planned and successfully completed five Y2K
                               readiness tests on nationally maintained mail processing
                               equipment as of May 1999, an improvement over the two
                               reported as completed in December 1998. Two tests were
                               conducted at a Plant and Distribution Center, two at a bulk
                               mail center, and one involved retail vending. According to
                               Postal Service officials, some Y2K problems were found
                               during testing (and were being corrected), however none of
                               the problems should directly affect the movement of the
                               mail.

                                                                       Y2K Mail Processing Equipment Readiness Testing
                                  Number of Types of Equipment




                                                                                                                 19




                                                                       5                              5

                                                                 2
                                                                                           0

                                                                     Completed           Addl      Baseline       Addl Base
                                                                                       Completed

                                                                        December 1998 Actual          May 1999 Actual
                                                                        March 1999 Target             October 1999 Target


                               We view the progress as mixed. On the one hand, all five
                               tests planned in December 1998 were completed as of May
                               1998, indicating considerable progress. However, on the
                               other hand, we were concerned that the Postal Service used
                               a small number of tests to represent all mail processing
                               equipment components in Postal facilities across the nation
                               and therefore were reluctant to place too much value on this
                               progress. The Postal Service subsequently decided to
                               expand mail processing equipment testing to include
                                                                                 12

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



                               additional geographic areas. Nineteen new tests are now
                               planned to ensure that what was successfully tested in one
                               location would apply to all other locations that are configured
                               the same. This new series of tests is scheduled to be
                               completed by October 1999. We are reviewing this area in
                               more depth in an ongoing review.

Status of Program              Implementation of Prior Program Management Office
Management Office              Reporting Recommendations: Our February 1999 Y2K
Report                         report, entitled “Year 2000 Initiative: Program Management
Recommendations                Office Reporting” (Report No. IS-AR-99-001, February 18,
                               1999),
                               addressed the quality and reliability of Y2K information
                               reported to senior managers. We found that Y2K briefings
                               and reports to senior management were not always
                               complete, consistent, or clear. Y2K briefings did not include
                               a standard report on the overall status of Y2K progress and
                               were not provided at regularly scheduled intervals. Senior
                               managers did not always have the information to monitor
                               Y2K progress and lost time critical opportunities to make
                               important resource and budget decisions. We made four
                               recommendations in this report addressing these issues
                               which the Postal Service agreed to implement.

                               In December 1998, the Postal Service reorganized its
                               program management to better reflect Y2K efforts in terms
                               of the business operations and created a Y2K Executive
                               Council. The Council is made up of senior officers leading
                               Y2K communication, remediation, and business continuity
                               planning activities and other senior managers. The Council
                               meets approximately twice each month to review the new
                               Y2K program plan, assess progress, and resolve issues.
                               The Y2K program plan established management
                               accountability and control within Y2K work segments and an
                               official has been assigned to each work segment. Progress
                               is measured against the plan and the results are reviewed
                               at Council meetings.

                               The Y2K program management reorganization and new
                               Y2K program plan facilitated implementation of several of
                               our recommendations. In implementing recommendations 1
                               and 2, the Postal Service developed a standardized report
                               used by the Y2K Executive Council to monitor progress
                               against the overall Y2K program plan. The Council uses
                               this standardized report to track progress using set
                               milestones and baseline metrics as set forth in the Y2K

                                                    13

                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



                               program plan. In implementing recommendation 3, the
                               Postal Service consolidated some Y2K standalone
                               databases into a single database and have established links
                               to other systems. In implementing recommendation 4, the
                               Postal Service had, and continues to reevaluate priorities
                               and shift or identify resources to complete the initiative.
                               Exhibit D contains a more detailed discussion on the Postal
                               Services’ implementation of the recommendations.




                                                    14
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                    IS-AR-99-002



                            MAY 1999 Y2K STATUS INFORMATION

        Y2K Major Area                                                                    Est.
            ********                    Baseline           Status       No. Verified  Completion
                                       Inventory                       as Compliant Date or Verified
                                                                          (PIV'ed)   as Compliant
Information Systems:                                     Remediated
o Severe and Critical                     141               135            133             Sep-99
o Important, Not Critical                 283               267        83 (Optional)       Nov-99
o IT Infrastructure                      3,125             2,720           N/A          Undeterminable
                                                         Y2K Ready
o Exchanges (internal/external)          1,497              968              N/A            Jul-99
                                                         Completed
o Component Contingency Plans              185               3               N/A        Oct-99
                                                                                          Est.
                                        Current                         No. Verified  Completion
                                        Known                          as Compliant Date or Verified
                                       Inventory         Y2K Ready        (PIV'ed)   as Compliant
Core Business Processes:
** Mail Processing Equipment
o Severe and Critical                      38                35              27            Aug-99
o Important, Not Critical                  27                27              NA            Jul-99
** Suppliers
o Severe and Critical                    1,863              130              N/A        Undeterminable
    Business Areas                        277                36
    Geographic Areas                     1,586               94
** Facility Sites
o Severe and Critical-HQ                 None              None              N/A            N/A
o Important, Not Critical-HQ              155               95               N/A           Nov-99
o Critical, Tech.-Dependent-Fld           353               0                N/A           Oct-99
o Important, Life Safety-Fld             3,631             342               N/A           Nov-99
                                                         Completed
Corporate Y2K Issues:
o Business Continuity Plans                32                0               N/A           Nov-99
o Systems Readiness Testing                30                0               N/A           Aug-99
o Non-IS Readiness Testing                  5                5               N/A           Mar-99
o Addl Non-IS Readiness Testing            19                0               N/A           Oct-99

The blue areas represent issues that are high priorities and at a minimum need to be performed.
NLT indicates the item is no longer tracked. TBD denotes dates to be determined. N/A indicates
post implementation verification no applicable.




                                                    15                                        Exhibit A
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



                       DECEMBER 1998 Y2K STATUS INFORMATION

        Y2K Major Area                                                No. Verified Est. Completion
            ********                    Baseline                     as Compliant Date or Verified
                                       Inventory        Status          (PIV'ed)    as Compliant
Information Systems:                                 Remediated
o Severe and Critical                     156            114              6              TBD
o Important, Not Critical                 354            296         12 (Optional)       TBD
o IT Infrastructure                      2,010          1,481             0             Jul-99
                                                     Y2K Ready
o Exchanges (internal/external)          3,186*           0                N/A           TBD
                                                      Completed
o IS Contingency Plans                    156             0               N/A           Oct-99
                                        Current                       No. Verified Est. Completion
                                        Known                        as Compliant Date or Verified
                                       Inventory         Y2K Ready      (PIV'ed)    as Compliant
Core Business Processes:
** Mail Processing Equipment
o Severe and Critical                      43               27              0            TBD
o Important, Not Critical                  33               18              0            TBD
** Suppliers
o Severe and Critical                     563*               2             N/A          Sep-99
o Important, Not Critical                3,650*              7             N/A          Sep-99
** Facility Sites
o Severe and Critical-HQ                 None              None            N/A           N/A
o Important, Not Critical-HQ              131*              10             N/A           TBD
o Severe and Critical-Fld                1,200*              0             N/A          Sep-99
o Important, Not Critical-Fld           30,073*              0             N/A          Sep-99
                                                         Completed
Corporate Y2K Issues:
o Business Continuity Plans            Unknown               0             N/A          Aug-99
o Systems Readiness Testing            Unknown               0             N/A           TBD
o Non-IS Readiness Testing             Unknown               2             N/A           TBD

The yellow areas represent issues that are high priorities and at a minimum need to be
performed. The single asterisk indicates baseline not complete at the time. TBD denotes dates
to be determined. N/A indicates post implementation verification not applicable.




                                                    16                                      Exhibit B
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



                             PRIOR AUDIT COVERAGE SYNPOSIS


The OIG and General Accounting Office established a joint partnership in the fall of
1998 to work on Y2K issues which led to February 1999 testimony before three House
subcommittees. The Inspector General testimony on the Postal Service Y2K Initiative
(Report No. IS-TR-99-001 dated February 23, 1999), addressed major challenges
facing the Postal Service. These included: developing and implementing a business
continuity and contingency plan; determining whether external suppliers and Postal
facilities are Y2K ready; deploying solutions and testing mail processing equipment; and
reviewing, correcting, and testing information systems, data exchanges, information
technology infrastructure. The GAO delivered testimony entitled “Year 2000 Computing
Crisis: Challenges Still Facing the U.S. Postal Service” (GAO/T-AMID-99-86, dated
February 23, 1999) which addressed Y2K operational issues similar to those presented
in the IG testimony.

In July 1999, we issued a Y2K report entitled "Year 2000 Initiative: Review of
Administration Management" (Management Advisory Report No. FR-MA-99-002, dated
July 7, 1999). Among the more significant issues, we noted that adequate controls
were not always in place to monitor contractor activities, information had not always
been provided to Integrated Business Systems Solutions Center personnel to help in
controlling Y2K resources, and work products provided by contractor personnel were
not always timely or adequate. We also noted issues with unnecessary layers of
contractor management, numbers or expertise of contractor personnel, security
clearances, and deviations from USPS travel regulations granted to one contractor.
USPS management concurred with seven of our eight suggestions for opportunities to
save resources.

In February 1999, we issued a Y2K report entitled “Year 2000 Initiative: Program
Management Reporting” (Report No. IS-AR-99-001, dated February 18, 1999) that
addressed quality and reliability of Y2K information reported to senior managers. We
found that Y2K briefings and reports to senior management were not always complete,
consistent, or clear. Y2K briefings did not include a standard report on the overall status
of Y2K progress and were not provided at regularly scheduled intervals. Senior
managers did not always have the information to monitor Y2K progress and lost time
critical opportunities to make important resource and budget decisions. USPS
management concurred with our findings and recommendations.

In September 1998, we issued a Y2K report entitled "Year 2000 Initiative: Post
Implementation Verification" (Report No. IS-AR-98-003, dated September 29, 1998),
that involved an assessment of the efficiency and effectiveness of the process
implemented as an independent check on USPS remediation efforts. This report
recommended USPS modify its system certification and post implementation verification
procedures to improve the quality of systems sent to verification as well as the process
itself. USPS management concurred with our findings and recommendations.



                                                    17                                      Exhibit C
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



In July 1998, we issued a Y2K report, entitled "Year 2000 Initiative: Status of the
Renovation, Validation, and Implementation Phases" (Report No. IS-AR-98-002, dated
July 21, 1998), that involved a preliminary assessment of the renovation, validation, and
implementation phases of the USPS Year 2000 initiative. It contained
recommendations for improvement in several areas including accurately reporting the
compliance status of systems applications. USPS management concurred with our
findings and recommendations.

Our first Y2K report entitled "Year 2000 Initiative" (Report No. IS-AR-98-001), was
issued on March 31, 1998. During this review, we examined the awareness and
assessment phases of the USPS Y2K initiative and made recommendations for
improvement in several areas including assigning accountability to responsible
managers. USPS management concurred with our findings and recommendations.

We also issued a letter report, entitled "Y2K Contract Indemnification Advisory Letter"
(Report No. CA-LA-98001, dated July 7, 1998). That letter addressed negotiations
between the Postal Service and a consulting firm regarding the Y2K program
management contract's indemnification clause. That letter contained suggestions to
USPS management regarding the indemnification issue.




                                                    18                                      Exhibit C
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                          IS-AR-99-002



           Details of Y2K Report on Program Management Office Reporting
                           Recommendation Implementation


     RECOMMENDATION 1: VP, Information Systems - Develop a “standardized report” to be
     included in briefings that discloses all Year 2000 Areas and provide them on a frequent (e.g.,
     biweekly) basis to senior management.

     ACTIONS COMPLETED TO DATE: The Program Management Office developed a
     standardized bi-weekly “Program Plan Update” report used by the Year 2000 Executive
     Council to monitor progress against each of the 31 Program Plan work segments. The report
     provides the current status against the milestones and metrics defined in the Program Plan.
     This report is presented as the first agenda item at the Executive Council meetings.

     Decision briefings are standardized in terms of addressing specific issues related to
     achievement of program plan metrics and milestones.


     RECOMMENDATION 2: VP, Information Systems - Ensure that the “standardized report”
     includes at a minimum, the following: (1) all major Year 2000 areas, (2) original baseline
     figures, any changes to the baseline and reason for change, and target dates, and (3)
     definitions of terms as appropriate. Also details should be provided on baselines, such as mail
     processing equipment, information technology infrastructure, etc. to show the magnitude of
     effort undertaken.

     ACTIONS COMPLETED TO DATE: The “Program Plan Update” report delivered to the
     Executive Council on a bi-weekly basis provides the current status of milestones and metrics in
     the program plan, and tracks approved changes to the Program Plan. In cases where dates
     are changed, new dates are identified and noted in supporting documentation to the Program
     Plan Update.


     RECOMMENDATION 3: VP, Information Systems – Consolidate and link USPS Year 2000
     databases to provide a complete, centralized repository of Year 2000 project information.

     ACTIONS COMPLETED TO DATE: The Postal Service has made strides in consolidating
     stand-alone databases into the central repository, the Planning and Reporting (P&R) database.
     In cases where the costs to consolidate additional databases outweigh the benefit, database
     links may be established.


     RECOMMENDATION 4: VP, Information Systems – Re-evaluate priorities given the non-
     information systems and corporate Year 2000 issue areas and shift or identify additional
     resources to address them as soon as possible.

     ACTIONS COMPLETED TO DATE: This is ongoing with no end date. Priorities and
     resources are continuously re-evaluated, reassigned, and/or acquired. The work segment
     leaders reviewed their detailed plan to ensure adequate funding is in place to achieve plan
     objectives. If additional funding is required, there is a process in place to request the funding.




                                                    19                                               Exhibit D
                     This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                            Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002




                                                   20                                       Appendix
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002




                                                   21                                       Appendix
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002




                                                   22                                       Appendix
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
Y2K Initiative: Status of Postal Service Y2K Readiness                                  IS-AR-99-002



Major Contributors to
This Report:




                                                   23
                    This is a Year 2000 Readiness Disclosure as defined in PL-105-271
                           Year 2000 Information and Readiness Disclosure Act.
